App. 1
FILED: December 15, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-1019 (L)
(l:18-cv-00562,GLR)
LAWRENCE MILLS
Plaintiff — Appellant
v.
STATE OF MARYLAND; MARYLAND STATE
POLICE; OFFICER ANTHONY HASSAN, In both
his official and individual capacity as an officer of
the Maryland State Police; OFFICER JAMES
LANTZ, In both his official and individual capacity
as an officer of the Maryland State Police;
OFFICER MATTHEW DULL, In both his official
and individual capacity as an 'officer of the
Maryland State Police
Defendants - Appellees
No; 20-1021
(l:18-cv-00562-GLR)
LAWRENCE MILLS
Plaintiff - Appellant
V.
STATE OF MARYLAND; MARYLAND STATE
POLICE; OFFICER ANTHONY HASSAN, In both
his official and individual capacity as an officer of
the Maryland State Police; OFFICER! JAMES

App. 2
LANTZ, In both his official and
individual capacity as an officer of the Maryland
State Police; OFFICER MATTHEW DULL, In
both his official and individual capacity as an
officer of the Maryland State Police
Defendants - Appellees
ORDER
The petition for rehearing en banc was circulated
to the full court. No judge requested a poll under
Fed. R. App. P. 35. The court denies the petition
for rehearing en banc.
For the Court
Is/ Patricia S. Connor, Clerk

App. 3
FILED: September 28, 2020
UNITED STATES COURT OF APPEALS FOR
THE FOURTH CIRCUIT
No. 20-1019 (L)
(l:18-cv-00562-GLR)
LAWRENCE MILLS
Plaintiff - Appellant
v.

STATE OF MARYLAND; MARYLAND STATE
POLICE; OFFICER
ANTHONY HASSAN, In both his official and
individual capacity as an officer of the Maryland
State Police; OFFICER JAMES LANTZ, In both
his official and individual capacity as an officer of
the Maryland State Police; OFFICER MATTHEW
DULL, In both his official and individual capacity
as an officer of the Maryland State Police
Defendants - Appellees

App. 4
No. 20-1021 (1:18-cv-00562-GLR)
LAWRENCE MILLS
Plaintiff - Appellant
v.
STATE OF MARYLAND; MARYLAND STATE
POLICE; OFFICER ANTHONY HASSAN, In both
his official and individual capacity as an officer of
the Maryland State Police; OFFICER JAMES
LANTZ, In both his official and individual capacity
as an officer of the Maryland State Police;
OFFICER MATTHEW DULL, In both his official
and individual capacity as an officer of the
Maryland State Police
Defendants - Appellees
JUDGMENT
In accordance with the decision of this court, the
judgments of the district court are affirmed.
This judgment shall take effect upon issuance of
this court's mandate in accordance with Fed. R.
Civ. P. 41.
Is/ PATRICIA S. CONNOR. CLERK

App. 5
UNPUBLISHED
UNITED STATES COURT OF APPEALS FOR THE
FOURTH CIRCUIT

No. 20-1019

LAWRENCE MILLS,
Plaintiff - Appellant,
v.
STATE OF MARYLAND; MARYLAND STATE POLICE;
OFFICER ANTHONY HASSAN, In both his official and
individual capacity as an officer of the Maryland State
Police; OFFICER JAMES LANTZ, In both his official and
individual capacity as an officer of the Maryland State
Police; OFFICER MATTHEW DULL, In both his official
and individual capacity as an officer of the Maryland
State Police,
Defendants - Appellees.

No. 20-1021

LAWRENCE MILLS,
Plaintiff - Appellant,
v.
STATE OF MARYLAND; MARYLAND STATE POLICE;
OFFICER ANTHONY
HASSAN, In both his official and individual capacity as

App. 6
an officer of the Maryland State Police; OFFICER JAMES
LANTZ, In both his official and individual capacity as an
officer of the Maryland State Police; OFFICER
MATTHEW DULL, In both his official and individual
capacity as an officer of the Maryland State Police,

Appeals from the United States District Court for the
District of Maryland, at Baltimore. George L. Russell, III,
District Judge. (l:18-cv-00562-GLR)

Submitted: September 24, 2020
Decided: September 28, 2020

Before HARRIS and RICHARDSON, Circuit Judges, and
TRAXLER, Senior Circuit Judge.

Affirmed by unpublished per curiam opinion.

Lawrence Mills, Appellant Pro Se. Phillip M. Pickus,
OFFICE OF THE ATTORNEY GENERAL OF
MARYLAND, Pikesville, Maryland, for Appellees.

Unpublished opinions are not binding precedent in this
circuit.

App. 7
PER CURIAM:
Lawrence Mills appeals the district court’s orders
denying relief on his 42 U.S.C. § 1983 complaint and his
post judgment motions under Fed. R. Civ. P. 59(e) and
Fed. R. Civ. P. 60(b)(6). We have reviewed the record and
find no reversible error. Accordingly, we affirm for the
reasons stated by the district court. Mills v. Maryland,
No. l:18-cv- 00562-GLR (D. Md., Sept. 30, 2019; Dec. 23,
2019). We also deny Mills’ motions for partial summary
reversal and vacatur, and for initial hearing en banc. We
dispense with oral argument because the facts and legal
contentions are adequately presented in the materials
before this court and argument would not aid the
decisional process.
AFFIRMED

App. 8
IN THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF MARYLAND
LAWRENCE MILLS,
Civil Action No. GLR-18-562
Plaintiff,
v.
ANTHONY HASSAN, et al.,
Defendants.:
MEMORANDUM OPINION
THIS MATTER is before the Court on Plaintiff Lawrence
Mills’ Rule 60(b)(6) Motion (ECF No. 30) and Rule
59(e)(3) Motion (ECF No. 31). The Motions are ripe for
disposition, and no hearing is necessary. See Local
Rule 105.6 (D.Md. 2018). For the
reasons outlined below, the Court will deny both Motions.
I.

BACKGROUNDi

On March 13, 2015, Defendant Senior Trooper Anthony
Hassan (“Hassan”) arrested Mills for Driving Under the
Influence of Alcohol (“DUI”), (Compl. *§ 26, ECF No. 1), as
well as negligent driving, reckless driving, failure to obey
a properly placed traffic controldevice, driving or
attempting to drive while impaired by alcohol (“DWI”),
driving or attempting to drive a vehicle not equipped with
an ignition interlock, and failure to obey designated lane
directions, (Defs/ Mot. Dismiss Compl. Altera. Summ. J.
[“Defs/ Mot.”]Ex. 6 [“Court Records for Mar. 13, 2015
Stop”] at 2—4, ECF No. 11-8). On June 30, 2015,

1 The Court sets forth the complete facts of this case in its September
30, 2019 Memorandum Opinion. (ECF No. 28). Here, the Court
repeats only those facts necessary.

App. 9
Mills was convicted of DUI in the District Court for
Howard County, Maryland.2 (Compl. f 35). Mills was
sentenced to two years and sixty days in prison with all
but sixty dayssuspended. (Id.). Later that day, Mills
posted bond and immediately appealed his conviction.
(Id. H 36). On February 19, 2016, a jury in the Circuit
Court for Howard County, Maryland found Mills guilty of
negligent driving and failure to obey lane directions but
not guilty of DUI, DWI, and the other minor traffic
offenses. (Court Records for Mar. 13,2015 Stop at 2-4).
He was fined $230.00. (Id. at 3-4). On March 10, 2016,
Mills was also convicted of the ignition interlock offense,
which had been severed from the other chargesin the
Circuit Court trial, and he was sentenced to one year in
prison with all but seventy- five days suspended. (Id. at
2-4).
On February 23, 2018, Mills sued Hassan, Corporal
James Lantz (“Cpl. Lantz”), Trooper Matthew Dull (“Tpr.
Dull”),3 the Maryland State Police (“MSP”), and the State
ofMaryland, pursuant to 42 U.S.C. § 1983 (2018) for
unlawful arrest, search, and seizure inviolation of the
Fourth and Fourteenth Amendments. (ECF No. 1). Mills
also asserted various state law claims, including malicious
prosecution. The Complaint generally allegedthat there
was no probable cause for Mills’ arrest, and that Hassan
fabricated evidence andcommitted perjury to secure his
conviction.

2 In their Motion to Dismiss, Defendants state that Mills was convicted
of all chargesin the Howard County District Court. (Defs.’ Mot. at 1,
14, 42, ECF No. 11). The Court records indicate that Mills appealed
from the Howard County District Court to the CircuitCourt for
Howard County, (Court Records for Mar. 13, 2015 Stop at 2—4), and
Mills doesnot dispute that he was convicted of all charges.
3 When Cpl. Lantz and Tpr. Dull arrived at the scene, Hassan had
already stopped Mills and was searching his car.

App. 14
Am. Natl Fire Ins. Co.. 148 F.3d 396, 403 (4th Cir. 1998)
(internal quotations and citation omitted).

2.

Analysis

Here, Mills alleges that he is entitled to relief under Rule
59(e) because the Court’sdismissal of his Fourth
Amendment claim was based on “clear error of law.”
However, Mills resurrects a factual argument that he
made while opposing Defendants’ Motion to Dismiss: that
Hassan did not have probable cause to arrest him for the
ignition interlock offense, because Hassan only learned of
the restriction after arresting and transporting Mills to
the state police barracks. According to Mills, “when
Hassan was taking out the evidence bag to return Mills
property, he removed Mills ID from the wallet and
inspectedit, and saw what he believed to be an interlock
restriction, then proceeded to add on the charge.” (Pl.’s
Rule 59(e)(3) Mot. at 4, EGF No. 31 (quoting Pl.’s Mem.
Opp. Defs.’ Mot.Dismiss at 25—26, ECF No. 24)).
Mills urges this Court to adopt his version of events
regarding how and when Hassan learned of the ignition
interlock restriction. Defendants argue that it does not
matter when Hassan learned that Mills had an ignition
interlock restriction on his license because an arresting
officer’s state of mind is irrelevant when determining if
probable cause existed. Defendants rely upon Devenpeck
v. Alford. 543 U.S. 146,153 (2004), in which the United
States Supreme Court invalidated “[t]he rule that the
offense establishing probable cause must be ‘closely
related’ to, and based on the same conduct as, the offense
identified by the arresting officer at the time of arrest.”
The Court agrees with Defendants that, based

•

'%

App. 10
On May 17, 2018, Defendants filed a Motion to Dismiss
or, in the Alterative, Motion for Summary Judgment.
(ECF No. 11). Defendants argued, among other points,
that Mills was improperly challenging his convictions in
violation of Heck v. Humphry4 and that his conviction in
Circuit Court established probable cause as a matter of
law. Theyfurther argued that the probable cause finding
was not negated by Hassan’s alleged falsehoods. On
November 7, 2018, Mills filed an Opposition, (ECF No.
24), and a Cross Motion for Partial Summary Judgment,
(ECF No. 23). In his Opposition, Mills asserted that Heck
did not preclude him from asserting claims under § 1983,
because Heck did not require favorable termination—i.e.,
reversal on appeal—of all convictions. He argued thatthe
requirement was satisfied where some of the convictions,
here DUI and DWI, were notupheld on appeal. Mills also
argued that Hassan falsified his police report and
committed perjury at various proceedings,5 thereby
invalidating any subsequent findings that probable cause
existed for his arrest. Mills further argued that his § 1983
claims were viable becausehe was not only deprived of his
right to a fair trial but also subject to a loss of liberty as a
direct result of Hassan’s dishonesty.

4 In Heck, the United States Supreme Court held that a plaintiff
seeking damages under § 1983 for an allegedly unconstitutional
conviction or imprisonment “must prove that the conviction or
sentence has been reversed on direct appeal, expunged by executive
order, declared invalid by a state tribunal authorized to make such
determination, or calledinto question by a federal court’s issuance of a
writ of habeas corpus ” 512 U.S. 477, 486-87 (1994) (citing 28 U.S.C.
§ 2254 (2018)). Accordingly, “[a] claim for damages bearing that
relationship to a conviction or sentence that has not been so
invalidated is not cognizable under § 1983.” Id. at 487 (emphasis
original).5 Hassan also testified at an October 30, 2015 suppression
hearing in Howard County Circuit Court and at a February 4, 2016
Motor Vehicle Administration.

.

App. 11
After the motions were fully briefed,6 this Court issued a
Memorandum Opinion and Order on September 30, 2019,
granting the Defendants’ Motion to Dismiss and denying
Mills’ Motion for Partial Summary Judgment as moot.
(ECF Nos. 28, 29). The Court concluded that Mills’
Fourth Amendment claims for false arrest and
unreasonable search and seizure failed because “[ujnder
Maryland law, a conviction determines conclusively the
existence of probable cause, regardless of whether the
judgment is later reversed in a subsequent proceeding,”
unless the conviction was secured through “fraud,
perjury, or other corrupt means.” (Sept. 30, 2019 Mem.
Op. at 14, ECF No. 28) (internal quotations and citations
omitted). The Court found that probable cause had been
established because Mills was convicted of three offenses
on appeal: negligent driving, failure to obey lane
directions, and driving or attempting to drive a vehicle
not equipped with an ignition interlock. The jury’s
decision to acquit Mills of DUI and DWI on appeal was
inconsequential, because “Hassan had probable cause to
arrest based on Mills’negligent driving, failure to obey
lane directions, and driving without an interlock device,”
thereby justifying Mills’ arrest “even if convictions
stemming from the same arrest were later overturned.”
(Id. at 15—16). Accordingly, Mills’ § 1983 claim was
barred by Heck because, in challenging whether
Hassan had probable cause for his arrest, Mills was
collaterally attacking the conviction resulting from that
arrest.

6 On November 21, 2018, Defendants filed an omnibus brief, replying
to Mills’ Opposition to their Motion to Dismiss and opposing his Cross
Motion for Partial SummaryJudgment. (ECF No. 26). On November
30, 2019, Mills filed a Reply to Defendants’ Opposition to his Cross
Motion for Partial Summary Judgment. (ECF No. 27).

A>

v*V-

App. 12
As to Mills’ Fourteenth Amendment claims, the Court
concluded that Mills had failed to adequately plead facts
establishing a loss of liberty—i.e., conviction and
incarceration—resulting from fabricated evidence. Mills
was convicted of the ignition interlock offense in Howard
County District Court, sentenced to jail, and then
released onbond pending his appeal. However, the Court
noted that Mills did not allege that “Hassan fabricated
this charge or that his Ignition Interlock System was in
place as required” and commented that “Mills does not
even mention the Ignition Interlock charge in the
Complaint.” (Id. at 18). Having concluded that Mills
failed to state a claim upon which relief could be
granted, the Court did not reach Defendants’ alternative
arguments for dismissal and declined to exercise
supplemental jurisdiction over Mills’ state law claims.
On October 9, 2019, Mills filed timely Rule 60(b)(6) and
Rule 59(e)(3) Motions, seeking reconsideration of the
Court’s September 30, 2019 Order dismissing his
Complaint. (ECF Nos. 30, 31). Defendants filed an
Opposition on October 22, 2019. (ECFNo. 32). Mills filed a
Reply on October 29, 2019. (ECF No. 33). Before this
Court could rule on the merits of the pending motions,
Mills filed a Notice of Appeal on October 30, 2019. (ECF
No. 34). The Court addresses both Motions in turn.
II.

DISCUSSION

A. Rule 59(eU31 Motion
1.

Standard of Review

Although the Federal Rules of Civil Procedure do not
expressly recognize motionsfor “reconsideration,” Rule
59(e) authorizes a district court to alter or amend a prior
final judgment in three circumstances: “(1) to accommodate
an intervening change in controlling

:$

App. 13
law; (2) to account for new evidence not available at trial;
or (3) to correct a clear error oflaw or prevent manifest
injustice ” United States ex rel. Carter v. Halliburton Co..
866 F.3d 199, 210 (4th Cir. 2017) (citing Zinkand v.
Brown. 478 F.3d 634, 637 (4th Cir. 2007)); see also Katvle
v. Penn Natl Gaming. Inc.. 637 F.3d 462, 470 n.4 (4th Cir.
2011). The United States Court of Appeals for the Fourth
Circuit has held that Rule 59(e) may also be used to
“correct manifest errors of... fact upon which the
judgment is based.” Md. Elec. Indust. Health Fund v.
Kodiak Util. Const.. Inc.. JFM-02-3662, 2004 WL
112722, at *1 (D.Md. Jan. 20, 2004) (quoting Small v.
Hunt. 98 F.3d 789, 797 (1996)) (internal quotations
omitted). The party seeking post-judgment relief under
Rule 59(e) must file the appropriatemotion within 28 days
of the final judgment, specifically identifying the basis for
reconsideration. Bolden v. McCabe. Weisberg & Conwav.
LLC. No. DKC 13-1265, 2014 WL 994066, at *1 n.l
(D.Md. Mar. 13, 2014). The court may properly deny the
motion ifa movant fails to establish one of the criteria.
See, e.g.. Jarvis v. Enter. Fleet Servs. & Leasing Co..
No. DKC-07-3385, 2010 WL 1929845, at *2 (D.Md. May
11, 2010), affd. 408 F.App’x668 (4th Cir. 2011) (denying
motion to reconsider because the plaintiff failedto identify
valid circumstances that would cause the district court to
alter or amend its prioropinion). Furthermore, “[a] motion
for reconsideration is ‘not the proper place to relitigatea
case after the court has ruled against a party, as mere
disagreement with a court’s rulingswill not support
granting such a request.’” Lvnn v. Monarch Recovery
Mgmt.. Inc.. 953 F.Supp.2d 612, 620 (D.Md. 2013)
(quoting Sanders v. Prince George’s Pub. Sch. Svs.. No.
RWT 08CV501, 2011 WL 4443441, at *1 (D.Md.
Sept. 21, 2011)). A Rule 59(e) amendment is “an
extraordinary remedy which should be used sparingly.”
Pac. Ins. Co.

-,V

App. 15
upon Devenpeck. Hassan’s knowledge of the ignition
interlock restriction is irrelevant, because he had
probable cause to arrest Mills for DUI.
The Court rejects Mills’ argument for three additional
reasons. First, Mills’ thirty- six-page Complaint never
mentions the ignition interlock offense and, despite
dedicating three lengthy paragraphs to what allegedly
transpired at the State Police Barracks, Mills never
alleged the version of events he now implores the Court
to adopt. Mills made this allegation for the first time in
his Opposition to the Motion to Dismiss, However, a
plaintiffmay not amend his complaint through responsive
pleadings. Hurst v. District of Columbia. 681 F.App’x 186,
194 (4th Cir. 2017). Having failed to allege these facts in
his Complaint or through an amended complaint, Mills
cannot now claim that those facts entitle him to relief
under Rule 59(e). See Potter v. Potter. 199 F.R.D. 550,
553 (D.Md. 2001) (“When parties file a motion with the
court, they are obligated to insure that it is complete with
respect to facts, law and advocacy Hindsight being
perfect; any lawyer can construct a new argument to
support a position previously rejected by the court,
especially once thecourt has spelled out its reasoning in
an order.”).7 Second, Mills cannot use his Rule 59(e)
Motion to make an argument he failed to properly raise
prior to the dismissal of his Complaint. Pac. Ins. Co.. 148
F.3d at 403. Third, even if this Court concluded that
Mills’ arrest for the ignition interlock offense was not
supported by probable cause—which it

7 On October 26, 2018, Mills’ attorney filed a Motion to Strike
Attorney’s Appearance, (EOF No. 18), which the Court granted on
October 31, 2019, (ECF No. 19). Mills has represented himself since
then. However, he was represented by counsel when the Complaint
was filed.

App. 16
does not—granting the Motion would not alter the futility
of his § 1983 claim for false arrest. As the Court
previously explained, Mills’ conviction for negligent
driving and failure to obey lane directions remain valid
and “(i]f there was probable cause for any of the charges
made ... then the arrest was supported by probable
cause, and the claim for false arrest fails.” (Sept. 30, 2019
Mem. Op. at 13 (quoting Wells v. Bonner. 45 F.3d 90,
95 (5th Cir. 1995). Next, Mills argues that this Court
erroneously relied upon Wilkerson v. Hester. 114
F.Supp.2d 446, 456 (W.D.N.C. 2000), in concluding that,
for Fourth Amendment purposes, an arrest for multiple
offenses constitutes a single transaction, such that
probable cause for one offense constitutes probable cause
for all offenses. Mills argues that the Court must analyze
every charge separately to determine if each was
supported by probable cause; in support thereof, he cites
Janetka v. Dabe. 892 F.2d 187 (2d Cir. 1989), and
Johnson v. Knorr, 477 F.3d 75 (3d Cir. 2007). Defendants
contend that Mills made this same argument in his
Opposition and that he is attempting to relitigate the
issue. Defendants note that neither Janetka nor
Johnson are binding on this Court and question their
applicability to this case. The Court agrees with
Defendants.
It is well established that a Rule 59(e) Motion cannot be
used to relitigate issues previously briefed and decided.
Medlock v. Rumsfeld. 336 F.Supp.2d 452, 470 (D.Md.
2002), affd, 86 F.App’x 665 (4th Cir. 2004) (“To the extent
that Plaintiff is simply trying to reargue the case, he is
not permitted to do so. Where a motion does not raise
new arguments, but merely urges the court to ‘change its
mind,’ relief is not authorized.”). Nor can it be used to
advance new legal arguments or theories that were
previously available.

•*'V-

App. 17
Pac. Ins. Co.. 148 F.3d at 403. Here, Mills attempts to
do both. Mills repeats the same probable cause
argument previously rejected by this Court, and he now
cites Janetka and Johnson to support that argument
when he could have done so before his Complaint was
dismissed. While the Motion could be denied on this
basis alone, the Court reaches the substance of Mills’
argument and concludes that neither Janetka nor
Johnson compel individualized determinations of
probable cause. As Defendants note, decisions issued by
the Second and Third Circuit are not binding on this
Court. Moreover, the Fourth Circuit has endorsed opinions
issued by the Third and Ninth Circuits, which have held
that a Fourth Amendment claim will fail where an officer
has “probable cause for at least one charge for an arrest on
multiple charges.” Gantt v. Whitaker. 57 F.App’x 141,149
n.7 (4th Cir. 2003) (per curiam) (first citing Barry v.
Fowler. 902 F.2d 770, 773 n.5 (9th Cir. 1990), and then
citing Edwards v. City of Phila.. 860 F.2d 568, 575—76
(3d Cir. 1988)).
At bottom, Mills is not entitled to Rule 59(e) relief
regarding the dismissal of his Fourth Amendment claims.
The Court now considers Mills’ Fourteenth Amendment
claims.
Mills argues that dismissal of his Fourteenth
Amendment claim was based on a factual error. He
asserts that the Court incorrectly assumed that his
Fourteenth Amendment claim was based on the jail
sentence he received for the ignition interlock offense
when it should have been based on the two hours he spent
in custody following his conviction forDUI in Howard
County Circuit Court. Defendants argue that Mills’
malicious prosecution claim fails because he was
convicted of all charges and, on appeal, three of those
convictions were affirmed, including the ignition interlock
offense. They also note that Mills never mentioned the
ignition interlock offense in his Complaint. Defendants’

App. 18
arguments are not responsive to Mills’ contention that he
suffered a deprivation of liberty following his DUI
conviction. Nonetheless, the Court concludes that Mills is
not entitled to relief under Rule 59(e). In his Complaint,
Mills wholly failed to advance the factual andlegal
arguments he now asserts in support of his Fourteenth
Amendment claim. Mills cannot amend his factually
deficient Complaint by way of a Rule 59(e) motion. Potter.
199 F.R.D. at 553. His responsive pleadings and Motion
for Partial Summary Judgment are also conspicuously
silent on the issue he now raises. As the Court previously
stated, Millsis not entitled to reconsideration based on his
failure to allege specific facts and legal theories prior to
the dismissal of his case. Ford v. United States. No. CIV.
RDB 12-2848, 2014 WL 1388261, at *2 (D.Md. Apr. 7,
2014), appeal dismissed. 582 F-App’x 183 (4th Cir. 2014);
see also Jarvis. 2010 WL 1929845, at *2 (denying a Rule
59(e) motion where the plaintiff implored the court to
“correct manifest errors of law or fact” but presented
additional arguments that essentially sought “to have the
court change its mind”). Accordingly, Mills’ Rule 59(e)
Motion is denied.
B. Rule 60(bi(61 Motion
1.

Standard of Review

A motion to alter or amend filed more than twenty-eight
days of the judgment isgovemed by Rule 60(b). See
Fed.R.Civ.P. 59(e). As a threshold matter, the party
seeking relief under Rule 60(b) must establish
“timeliness, a meritorious claim or defense, and alack of
unfair prejudice to the opposing party.” Mizrach v.
United States. WDQ-11-1153, 2015 WL 7012658, at *4
(Nov. 12, 2015) (citing Aikens v. Ingram. 652 F.3d 496,
501 (4th Cir. 2011)). Only after the movant has made
that preliminary showing will the court

App. 19
consider the basis for the motion, which must allege one
of the following: (1) “mistake, inadvertence, surprise, or
excusable neglect”; (2) “newly discovered evidence that,
with reasonable diligence, could not have been discovered
in time to move for a new trial underRule 59(b)”; (3) fraud
... misrepresentation, or misconduct by an opposing
party”; (4) “thejudgment is void”; (5) “the judgment has
been satisfied, released, or discharged; it is basedon an
earlier judgment that has been reversed or vacated; or
applying it prospectively is nolonger equitable”; or (6)
“any other reasons that justifies relief.” Fed.R.Civ.P.
60(b).
2.
Analysis
Mills’ Rule 60(b) Motion asserts the same deprivation of
liberty argument he madein his Rule 59(e) Motion. The
Court rejects the argument here, for the same reasons it
didso in the Rule 59(e) Motion. The Court concludes that
the Motion is not meritorious and, as such, is not entitled
to further review under Rule 60(b)(6). Accordingly, Mills’
Rule 60(b)(6) Motion is denied.

m.

CONCLUSION

For the foregoing reasons, the Court will deny the
Plaintiffs Rule 60(b)(6) Motion(ECF No. 30) and Rule
59(e)(3) Motion (ECF No. 31). A separate Order follows.
Entered this 23rd day of December, 2019.
/s/
George L. Russell,
III United States District Judge

App. 20
IN THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF MARYLAND
LAWRENCE MILLS,
Civil Action No. GLR-18-562
Plaintiff
v.
ANTHONY HASSAN, et al.,
Defendants.:
ORDER
For the reasons stated in the foregoing Memorandum
Opinion, it is this 23rd day of December, 2019, by the
United States District Court for the District of Maryland,
hereby: ORDERED that Plaintiff Lawrence Mills’ Rule
60(b) (6) Motion (ECF No. 30) is
DENIED;
IT IS FURTHER ORDERED that Mills Rule 59(e)(3)
Motion (ECF No. 31) is also DENIED; and
IT IS FURTHER ORDERED that the Clerk shall MAIL a
copy of this Order and the foregoing Memorandum
Opinion to Mills at his address of record.
/s/
George L. Russell, III
United States District Judge

App. 21
IN THE UNITED STATES DISTRICT COURTFOR THE
DISTRICT OF MARYLAND
LAWRENCE MILLS,
Civil Action No. GLR-18-562
v.
ANTHONY HASSAN, et al.
Defendants.

MEMORANDUM OPINION
THIS MATTER is before the Court on Defendants Senior
Trooper Anthony Hassan (“Sr. Tpr. Hassan”), Trooper
First Class Matthew Dull (“Tpr. Dull”), Corporal James
Lantz (“Cpl. Lantz”) (collectively, the “Trooper
Defendants”), State of Maryland (the “State”), and
Maryland State Police’s (“MSP”) Motion to Dismiss
Complaint or, in the Alternative, Motion for Summary
Judgment (ECF No. 11) and Plaintiff Lawrence Mills’
Cross Motion for Partial Summary Judgment (the “CrossMotion”) (ECF No. 23). The Motions are ripe for
disposition, and no hearing is necessary. See Local Rule
105.6 (D.Md. 2018). For the reasons set out below, the
Court will grant Defendants’ Motionand deny Mills’
Cross-Motion as moot.

I.

BACKGROUND
Just after midnight on March 13, 2015, Mills was
driving south on Interstate 95,after spending the
evening at the Horseshoe Casino in Baltimore,
Maryland, when Sr.
1 Unless otherwise noted, the Court takes the following facts from
Mills’ Complaint, (ECF No. 1), and accepts them as true. See
Erickson v. Pardus. 551 U.S. 89, 94 (2007) (citing Bell Atl. Coro, v.
Twomblv. 550 U.S. 544, 555-56 (2007)).

App. 22
Tpr. Hassan pulled him over. (Compl. f f 18-19, ECF No.
1). According to Sr. Tpr. Hassan’s Incident Report, Mills’
car was swerving between lanes. (Defs.’ Mot. Dismiss
Compl. Altem. Summ. J. [“Defs.’ Mot.”] Ex. 2 [“Incident
Report”] at 3, ECF No. 11-4). Hassan smelled alcohol on
Mills’ breath and observed his eyes were “glassy and
bloodshot.” (Id.). In response to Sr. Tpr. Hassan’s
questions, Mills denied having had “anything to drink,”
before conceding that he “had some juice.” (Compl. f
19; see Incident Report at 3).
Mills stepped out of the car at Sr. Tpr. Hassan’s request,
but when Sr. Tpr. Hassan stated he was going to conduct
field sobriety tests, Mills declined. (Compl. ff 19-21;
Incident Report at 3). While checking Mills’ Maryland
driver’slicense, Sr. Tpr. Hassan noticed Mills had a
restriction that required him to use an Ignition Interlock
System (“Ignition Interlock”) in his car. (Incident Report
at 3).2 When asked why there was no Ignition Interlock
on his car’s steering wheel, Mills said he had taken it out
recently. (Id.). After stating he would “take [Mills] to
jail,” Sr. Tpr. Hassan searched Mills’ vehicle. (Compl.
If 21-22). At that point, Tpr. Dull and Cpl. Lantz
arrived at the scene. (Id. f 22). Mills complained to them
about Sr. Tpr. Hassan’s search, but they declined to
intervene. (Id. f 23). Sr. Tpr. Hassan then searched
Mills, placed
Mills in his police cruiser, and drove him to MSPs
Waterloo Barracks. (Id. If 24-25; Incident Report at 5).
2 Those convicted of certain alcohol-related driving offenses must
participate in the Ignitionlnterlock System Program, Md. Code Ann.,
Transp. § 16-404.1 (West 2019), and violating the Program is a
criminal offense, id. § 16-113(k), (1).

App. 23
At the Barracks, Sr. Tpr. Hassan read Mills the “DR15 advise of rights” andasked him if he would submit to
an Intoximeter breath test. (Compl. f 25; Incident Report
at 5). Mills requested to speak to an attorney, but Sr. Tpr.
Hassan did not honor that request. (Compl. f 25). Sr.
Tpr. Hassan noted that Mills refused to take the breath
test, (id.; Incident Report at 5), which resulted in the
automatic suspension of Mills’ driver’s license, (Defs.’
Mot. Ex. 4 [“DR-15 Form”], ECF No. 11-6); see Md. Code
Ann., Transp. § 16-205.1(i) (West 2019). Sr. Tpr. Hassan
charged Mills with Driving Under the Influence of
Alcohol (“DUI”), (Compl. K 26), as well as negligent
driving, reckless driving, failure to obey properly placed
traffic control device, driving or attempting to drive while
impaired by alcohol (“DWI”), driving or attempting to
drive a vehicle not equipped with an Ignition Interlock,
and failure to obey designated lane directions,(Defs.’
Mot. Ex. 6 [“Court Records for Mar. 13, 2015 Stop”] at 24, ECF No. 11-8). Sgt. Mitchell Nuzzo told Sr. Tpr.
Hassan to let Mills speak with an attorney, and Sr. Tpr.
Hassan allowed Mills call a friend to pick him up. (Compl.
26-27). Sgt. Nuzzo took Mills’ mug shot and then
informed Mills that his friend had arrived. (Id. t 27).
Mills walked to the lobby to meet his friend, received
paperwork from Sr. Tpr. Hassan, andleft. (Id.).
On June 30, 2015, Mills was tried in the District Court of
Maryland in Howard County and convicted of all charges.
(Court Records for Mar. 13, 2015 Stop at 2-4; Compl. t
35).3 The District Court sentenced him to two years and
sixty days in prison, with all but sixty days suspended;
later that day, Mills posted bond and appealed.
3 Defendants state in their Motion that the Howard County
District Courtconvicted Mills of all charges. (Defe.’ Mot. at 1, 14,
42).

App. 24
On December 15, 2015, a jury in theCircuit Court for
Howard County convicted Mills of the driving without an
interlock device charge, which had been severed from the
others, and the Circuit Court sentenced Mills to one year
in prison, with all but seventy-five days suspended.
(Court Records for Mar. 13, 2015 Stop at 3-4).
On February 18, 2016, another Circuit Court for Howard
County jury heard the remaining charges against Mills.
(Compl. K 41; see Court Records For Mar. 13, 2015 Stop
at 2-4, 10). Sr. Tpr. Hassan testified about the
indications that Mills had been drinking, but the
friend who came to pick Mills up from the MSP
Barracks that night, Fernando Garcia, testified that Mills
showed no signs of being drunk.(CompL
41-42). The
jury acquitted Mills of the reckless driving, failure to obey
properly placed traffic control device, DUI, and DWI
charges, but convicted him of the negligent driving and
failure to obey lane directions charges, for which he was
fined a total of $230.00. (Id. % 43; Court Records for Mar.
13, 2015 Stop at 2-4).
Mills also requested a hearing regarding the suspension
of his driver’s license afterhe refused to take the alcohol
breath test. (Compl. f 39); see Md. Code Ann., Trans. §
16- 205.1. On February 4, 2016, an administrative law
judge (“ALJ”) held a hearing at theMotor Vehicle
Administration (“MVA”) to determine whether Mills
had refused to submit to an Intoximeter test on the
night he was stopped and arrested. (Compl. 1 39; Defs.’
Mot. Ex. 9 [“ALJ Decision”] at 1, ECF No. 11-11).

4

App. 25
Sr. Tpr. Hassan testified and was Subjected to crossexamination by Mills’ attorney. (Compl. ^ 39). The AU
found, by a preponderance of the evidence, that Hassan
had “reasonable grounds to believe that [Mills] was
driving or attempting to drive a motor vehicle while
under the influence of or impaired by alcohol....” (AU
Decision at 2). The AU based his conclusion on Mills’
alcohol-scented breath, glassy eyes, slurred speech,
stumbling, and refusal to take field sobriety tests. (Id.).
The AU concluded Mills violated § 16-205.1(f) and
suspended his license for 120 days. (Id. at 3). The ALFs
Decision informed Mills of his right to appeal the
administrative decision to the Circuit Court within thirty
days. (Id.).
On February 23, 2018, Mills sued Defendants. (ECF No.
1). Mills’ sixteen-count Complaint alleges: fabricated
probable cause and unreasonable seizure in violation of
the Fourth Amendment to the U.S. Constitution and false
police report and perjury in violation of the Fourteenth
Amendment (Count I)4; unlawful arrest and detention in
violation of the Fourth and Fourteenth Amendments
(Count III); unlawful search and seizure in violation of
the Fourth Amendment (Count IV); wrongful conviction
anddeprivation of substantive due process in violation of
Article 24 of the Maryland Declaration of Rights (Count
V); unreasonable search and seizure in violation of Article
26 of the Maryland Declaration of Rights (Count VI);
false arrest and false imprisonment (Count VII);
malicious prosecution, perjury, and fraud (Count IX);
battery, only as to Sr. Tpr. Hassan, MSP, and the State
(Count X);

4 On November 7, 2018, Mills voluntarily dismissed Counts II,
VIII, and XIII of the Complaint. (See PL’s Not. Vol. Dismiss. Spec.
Claims, ECF No. 22). Mills bringseach count against all Defendants
unless otherwise indicated.

5

App. 26
negligence (Count XI); gross negligence (Count XII);
negligent hiring, training, supervision, and retention,
against MSP and the State (Count XIV); civil conspiracy
(Count XV); and unlawful custom, pattern, or practice,
against MSP and the State (Count XVI). (Compl. f11 79205). Mills brings his federal claims under 42 U.S.C. §
1983 (2018). (Id. at 15, 17, 19, 20). He seeks monetary
damages. Qi at 17, 19-24, 26-28, 30-33, 35-36).
On May 17, 2018, Defendants filed their Motion to
Dismiss Complaint or, in the Alternative, Motion for
Summary Judgment. (ECF No. II).5 On November 7,
2018, Millsfiled an Opposition, (ECF No. 24), and a
Cross-Motion for Partial Summary Judgment (ECF No.
23). On November 21, 2018, Defendants filed a Reply.
(ECF No. 26). On November 30, 2018, Mills filed a Reply.
(ECF No. 27).
II. DISCUSSION
Defendants* Motion

1.

Conversion
Defendants style their Motion as motion to dismiss under
Federal Rule of Civil Procedure 12(b)(6) or, in the
alternative, for summary judgment under Rule 56. A
motionstyled in this manner implicates the Court’s
discretion under Rule 12(d). See Kensington
Volunteer Fire Dep’t. Inc, v. Montgomery Ctv.. 788
F.Supp.2d 431, 436-37 (D.Md. 2011),
5 On June 11, 2018, this Court granted Defendants’ Motion as
unopposed and closed the case. (ECF Nos. 12,13). On June 12, 2018,
Mills filed a Motion to Vacate Order of Dismissal. (ECF No. 14). On
October 11, 2018, the Court granted Mills’unopposed Motion and re­
opened the case. (ECF No. 15).

App. 27
affd. 684 F.3d 462 (4th Cir. 2012). This Rule provides
that when “matters outside the pleadings are presented
to and not excluded by the court, the [Rule 12(b)(6)]
motion must be treated as one for summary judgment
under Rule 56.” Fed.R.Civ.P. 12(d). The Court “has
‘complete discretion to determine whether or not to accept
the submission of any material beyond the pleadings that
is offered in conjunction with a Rule 12(b)(6) motion and
rely on it, thereby converting the motion, or to reject it or
simply not considerit.”’ Wells-Bev v. Kopp. No. ELH-122319, 2013 WL 1700927, at *5 (D.Md. Apr. 16, 2013)
(quoting 5C Charles Wright & Arthur Miller, Federal
Practice & Procedure § 1366, at 159 (3d ed. 2004 &
Supp. 2012)). The United States Court of Appeals for the
Fourth Circuit has articulated two requirements for
proper conversion of a Rule 12(b)(6) motion to a Rule 56
motion: noticeand reasonable opportunity for discovery.
See Greater Balt. Ctr. for Pregnancy Concerns. Inc, v.
Mayor of Balt.. 721 F.3d 264, 281 (4th Cir. 2013).
When the movant expressly captions its motion “in the
alternative” for summary judgment and submits matters
outside the pleadings for the court’s consideration, the
parties are deemed to be on notice that conversion under
Rule 12(d) may occur. See Moret v. Harvey. 381
F.Supp.2d 458, 464 (D.Md. 2005). The Court “does not
have an obligation to notify parties of theobvious.”
Laughlin v. Metro. Wash. Airports Auth.. 149 F.3d 253,
261 (4th Cir. 1998). Ordinarily, summary judgment is
inappropriate when “the parties have not had an
opportunity for reasonable discovery.” E.I. du Pont de
Nemours & Co. v. Kolon Indus..Inc.. 637 F.3d 435, 448
(4th Cir. 2011). Yet, “the party opposing summary
judgment

App. 2
'cannot complain that summary judgment was granted
without discovery unless that party had made an
attempt to oppose the motion on the grounds that more
time was needed for discovery.”’ Harrods Ltd, v. Sixty
Internet Domain Names. 302 F.3d 214, 244 (4th Cir.
2002) (quoting Evans v. Techs. Applications & Serv. Co..
80 F.3d 954, 961 (4* Cir. 1996)).
To raise sufficiently the issue that more discovery is
needed, the non-movant must typically file an affidavit or
declaration under Rule 56(d), explaining the “specified
reasons” why “it cannot present facts essential to justify
its opposition.” Fed.R.Civ.P. 56(d). A Rule 56(d) affidavit
is inadequate if it simply demands “discovery for the
sakeof discovery.” Hamilton v. Mayor of Balt.. 807
F.Supp.2d 331, 342 (D.Md. 201 l)(citation omitted). A
Rule 56(d) request for discovery is properly denied when
“the additional evidence sought for discovery would not
have by itself created a genuine issue of material fact
sufficient to defeat summary judgment.” Ingle ex rel.
Estate of Ingle v.Yelton. 439 F.3d 191, 195 (4th Cir.
2006) (quoting Strag v. Bd. of Trs.. 55 F.3d 943, 953 (4th
Cir. 1995)).
Here, Mills filed a Rule 56(d) affidavit, requesting various
specific discovery, including depositions of MSP
employees related to the case. (Pl.’s Resp. & Mem. L.
Opp’n Defs.’ Mot. Dismiss Altera. Summ J. at 44-48,
ECF No. 24). As a result, theCourt will not convert
Defendants’ Motion into one for summary judgment and
will instead consider it under Rule 12(b)(6).

App. 29
2.

Standard of Review
The purpose of a motion under Rule 12(b)(6) is to “test[ ]
the sufficiency of a complaint,” not to “resolve contests
surrounding the facts, the merits of a claim, or the
applicability of defenses.” King v. Rubenstein. 825
F.3d 206, 214 (4th Cir. 2016)
(quoting Edwards v. City of Goldsboro. 178 F.3d 231, 243
(4th Cir. 1999)). A complaint fails to state a claim if it
does not contain “a short and plain statement of the claim
showing that the pleader is entitled to relief,”
Fed.R.Civ.P. 8(a)(2), or does not “state a claim to relief
that is plausible on its face,” Ashcroft v. Iqbal. 556 U.S.
662, 678 (2009) (quoting Bell Atl. Corp. v. Twomblv.
550 U.S. 544, 570 (2007)). A claim is facially plausible
“when the plaintiff pleads factual content that allows
the court to draw thereasonable inference that the
defendant is liable for the misconduct alleged.” Id.
(citing Twomblv. 550 U.S. at 556). “Threadbare recitals
of the elements of a cause of action, supported by mere
conclusory statements, do not suffice.” Id. (citing
Twomblv. 550 U.S. at 555). Though the plaintiff is not
required to forecast evidence to prove the elements ofthe
claim, the complaint must allege sufficient facts to
establish each element. Goss v. Bank of America. NA...
917 F.Supp.2d 445, 449 (D.Md. 2013) (quoting
Walters v. McMahen. 684 F.3d 435, 439 (4th Cir. 2012)),
affd sub nom. Goss v. Bank of America.
NA. 546 FApp’x 165 (4th Cir. 2013).In considering a Rule
12(b)(6) motion, a court must examine the complaint as a
whole, consider the factual allegations in the complaint
as true, and construe the factual allegations in the light
most favorable to the plaintiff. Albright v. Oliver. 510
U.S. 266,

App. 30
268 (1994); Lambeth v. Bd. of Comm’rs. 407 F.3d 266,
268 (4th Cir. 2005) (citing Scheuer v. Rhodes. 416
U.S. 232, 236 (1974)). But, the court need not
accept unsupported or conclusory factual allegations
devoid of any reference to actual events.United Black
Firefighters v. Hirst. 604 F.2d 844, 847 (4th Cir. 1979), or
legal conclusions couched as factual allegations, Iqbal.
556 U.S. at 678.
The general rule is that a court may not consider
extrinsic evidence whenresolving a Rule 12(b)(6)
motion. See Chesapeake Bav Found.. Inc, v.
Severstal Sparrows Point. LLC. 794 F.Supp.2d 602, 611
(D.Md. 2011). But this general rule is subject to
several exceptions. First, a court may consider
documents attached to thecomplaint, see Fed.R.Civ.P.
10(c), as well as those attached to the motion to dismiss,
so long as they are integral to the complaint and
authentic, see Blankenship v. Manchin. 471 F.3d 523,
526 n.l (4th Cir. 2006). Second, a court may consider
documents referred to and relied upon in the complaint—
“even if the documents are not attached as exhibits.” Fare
Deals Ltd, v. World Choice Travel.com. Inc.. 180
F.Supp.2d 678, 683 (D.Md.2001); accord New Becklev
Mining Corp. v. Int’l Union. United Mine Workers of
Am.. 18 F.3dll61, 1164 (4th Cir. 1994). Third, a Court
may consider matters of public record. Philips v. Pitt
Cntv. Mem. Hosp.. 572 F.3d 176, 180 (4th Cir. 2009).
In the event that any of these properly considered
extra-pleading materials conflict with the “bare
allegations ofthe complaint,” the extra-pleading
materials “prevail.” Fare Deals. 180 F.Supp.2d at 683;
accord RaceRedi Motorsports. LLC v. Dart Mach.. Ltd..
640 F.Supp.2d 660, 664 (D.Md.2009).

S' .

.

m
App. 38
He states that after the District Court initially
sentenced him, the judge set a bond amount, and
Mills was released on bond, which the state court
records confirm. The only charge to which Mills
was sentenced to incarceration and did not
successfully appeal was the Ignition Interlock
charge. But Mills has not alleged that Sr. Tpr.
Hassan fabricated this charge or that his Ignition
Interlock System was in place as required. Though
Mills alleges Sr. Tpr. Hassan’s perjury in detail
through various trials and hearings, Mills does not
even mention the Ignition Interlock charge in the
Complaint. Accordingly, the Court concludes Mills
has not adequately pleaded that Sr. Tpr. Hassan’s
alleged fabrication caused his incarceration. See
Massey.759 F.3d at 354. As a result, the Court
will grant Defendants’ Motion as to Mills’
Fourteenth Amendment claims.
b.

Mills’ State Claims
THe remaining counts, Counts V—VII, IX—XII, and
XIV—XVI, are all state law claims. The Court
must, therefore, determine whether it is
appropriate to retain jurisdiction over them.
“[F]ederal courts are courts of limited
jurisdiction.” Home Buyers Warranty Corp. v.
Hanna. 750 F.3d 427, 432 (4th Cir. 2014) (quoting
Kokkonen v. Guardian Life Ins. Co.of America.
511 U.S. 375, 377 (1994)). “There are three
principal bases for subject-matter jurisdiction in
federal court: (1) federal-question jurisdiction; (2)
diversityjurisdiction; (3) and supplemental
jurisdiction.” Costlev v. City of Westminster.
No.GLR-16-1447, 2017 WL 5635463, at *1
(D.Md. Jan. 26, 2017); see also Exxon Mobile
Corp.v. Allapattah Servs.. Inc.. 545 U.S. 546, 552
(2005).

"y

App. 31
The Court will, therefore, consider the public records
submitted by Mills andDefendants.
3.

Analysis
In their Motion, Defendants argue that collateral
estoppel and the U.S. SupremeCourt’s holding in Heck
v. Humphrey bar Mills’ claims. Mills counters that
each of Defendants’ arguments does not apply to this
case. The Court will analyze Mills’ Complaint on a claimby-claim basis, considering Defendants’ arguments where
relevant.

a.

Mills’ Federal Claims
In Counts I, III, and IV, Mills brings federal claims under
the Fourth or FourteenthAmendments. The Fourth
Amendment claims relate to the alleged lack of probable
cause for his arrest and are variously named false arrest,
unlawful detention, and unlawful search and seizure.
Mills’ Fourteenth Amendment claims relate to alleged
dishonesty— i.e., fabricated evidence, false police report,
and perjury—and are essentially due process claims. The
Court will first address the Fourth Amendment claims.

1.

Fourth Amendment Claims
To plead a § 1983 claim “for false arrest in violation of the
Fourth Amendment, [a plaintiff] must show that his
arrest was made without probable cause.” Carter v.
Durham. No. WMN-14-2635, 2015 WL 641370, at *2
(D.Md. Feb. 12, 2015)
6 Defendants also argue that the Eleventh Amendment bars Mills’
claims against the State, MSP, and Trooper Defendants in their
official capacities; the State, MSP, and Trooper Defendants are not
“persons” for the purposes of 42 U.S.C. § 1983; that Trooper ,
Defendants are entitled to qualified immunity for Mills’ federal
claims and Maryland statutory immunity for Mills’ state claims;
and that Mills otherwise fails to state any of his claims. Because
the Court concludes that Mills fails to state a claim based on
Defendants’ other arguments, the Court need not address these
arguments,

App. 32
(citing Street v. Surdvka. 492 F.2d 368, 372-73 (4th
Cir.1974)). Similarly,“[t]o establish an unreasonable
seizure under the Fourth Amendment, [a plaintiff]
needs to show that theofficers decided to arrest [him]
for [the charged crime] without probable cause.” Brown
v. Gilmore. 278 F.3d 362, 367 (4th Cir. 2002) (first citing
Dunaway v. New York, 442 U.S. 200, 213 (1979); then
citing Taylor v. Waters. 81 F.3d 429, 434 (4th Cir. 1996);
and then citing United States v. Al-Tahb. 55 F.3d 923,
931 (4th Cir. 1995)). “To prove an absence of probable
cause, [a plaintiff] must allege a set of facts which made
it unjustifiable for a reasonable officer to conclude that
[the plaintiff] was violating” the law. Id. at 368. Probable
cause exists if the evidence before the law enforcement
officer is “sufficient to warrant a prudent person, or one of
reasonable caution, in believing, in the circumstances
shown, that the suspect [has] committed ... an
offense.” Gray v. State.
No. CCB-02-0385, 2004 WL 2191705, at *6 (D.Md. Sept.
24, 2004) (quoting Porterfield v. Lott. 156 F.3d 563, 569
(4th Cir. 1998)). Whether there is probable cause
depends on the totality of the circumstances. Gilliam v.
Sealev. 932 F.3d 216, 234 (4th Cir. 2019) (quoting
Smith v. Mundav. 848 F.3d 248, 253 (4th Cir. 2017)).
“While probable cause requires more than bare
suspicion, it requires less than that evidence necessary
toconvict.” Id. (quoting Mundav. 848 F.3d at 253).
Whether probable cause to arrest exists
is based only on the information the officer had at the
time of the arrest. Id. (first citing Mundav. 848 F.3d at
253; and then citing Graham v. Gagnon. 831 F.3d 176,
184 (4th Cir.2016)).

App. 33
“For [Fourth Amendment] purposes, an arrest on
multiple charges is a ‘single transaction/ and probable
cause will be found to exist, so long as it existed for at
least one offense.” Wilkerson v. Hester. 114 F.Supp.2d
446, 456 (W.D.N.C. 2000) (quoting Barry v, Fowler. 902
F.2d 770, 773 n.5 (9th Cir. 1990)). Other circuits
have held similarly. Id. (first citing Calusinski v.
Kruger. 24 F.3d 931 (7th Cir. 1994) (“At the time of the
arrest police officers need probable cause that a crime has
been committed, not that the criminal defendant
committed all of the crimes for which he or she is later
charged.”);and then citing Wells v. Bonner. 45 F.3d 90,
95 (5th Cir. 1995) (“If there was probable cause for any
of the charges made . . . then the arrest was supported
by probable cause,and the claim for false arrest fails.”)).
The doctrines of res judicata and collateral estoppel
preclude litigation of claimsor issues, respectively, under
certain circumstances. Allen v. McCurrv. 449 U.S. 90,
94 (1980). the purpose of the doctrines is to “relieve
parties of the cost and vexation of multiple lawsuits,
conserve judicial resources, and, by preventing
inconsistent decisions, encourage reliance on
adjudication.” Id. (citing Montana v. United States. 440
U.S. 147, 153 (1979)). “Congress has specifically required
all federal courts to give preclusive effect to state-court
judgments whenever the courts of the State from which
the judgments emerged would do so ” Gilliam v. Sealev.
932 F.3d 216, 231 (4th Cir. 2019) (quoting Allen. 449
U.S. at 96). As such, the doctrines of res judicata and
collateral estoppel apply to § 1983 actions and federal
courts must afford preclusive effect toclaims or issues
decided by state courts when that state’s courts would do
the same. Id.

App. 34
To establish collateral estoppel, or issue preclusion, each
of these questions must be answered affirmatively: (1)
“Was the issue decided in the prior adjudication identical
with the one presented in the action in question?”; (2)
“Was there a final judgment on the merits?”; (3) “Was the
party against whom the plea is asserted a party or in
privity with a party to the prior adjudication?”; and (4)
“Was the party against whom the plea is asserted given
a fair opportunity to be heard on the issue?”
Colandrea v. Wilde Lake Cmtv. Ass’n. Inc.. 761 A.2d
899, 909 (Md. 2000).
“Under Maryland law, a conviction determines
conclusively the existence of probable cause, regardless of
whether the judgment is later reversed in a subsequent
proceeding.” Ghazzaoui v. Anne Arundel Ctv.. 659
F.App’x 731, 733—34 (4th Cir. 2016) (quoting Asuncion v.
City of Gaithersburg. No. 95-1159, 1996 WL 1842, at *2
(4th Cir. Jan. 3, 1996) (unpublished)). Maryland
recognizes an exception to that rule, however, if‘the
conviction was obtained by fraud, perjury or other
corrupt means.” Ghazzaoui. 659 F.App’x at 734 (quoting
Zablonskv v. Perkins. 187 A.2d 314, 316 (Md. 1963)).
Further, the Supreme Court held in Heck v. Humphrey
that in order to recover damages for allegedly
unconstitutionalconviction or imprisonment, or for other
harm caused byactions whose unlawfulness would render
a conviction orsentence invalid, a § 1983 plaintiff must
prove that the conviction or sentence has been reversed
on direct appeal, expunged by executive order, declared
invalid by a state tribunal authorized to make such
determination, or called intoquestion by a federal court’s
issuance of a writ of habeas corpus, 28 U.S.C. § 2254. A
claim for damages bearing that relationship to a
conviction or sentence that has not been so invalidated is
not cognizable under § 1983. 512 U.S. 477, 486-87 (1994)

App. 35.
Here, the state courts have established that Sr. Tpr.
Hassan had probable cause to stop and arrest Mills, and
therefore the Court gives that determination preclusive
effect. Because Mills was convicted of negligent driving,
failure to obey lane directions, and driving without an
interlock device, probable cause for the stop and arrest
has been conclusively determined. See Ghazzaoui. 659
F.App’x at 733. Mills alleges that he did not commit
any traffic violations and that Hassan therefore did not
have probable cause to stop him, citing the Zablonskv
exception.7 Mills cannot make such a § 1983 claim,
however, because such a claim would necessarily be a
challenge to the probable cause for Mills’ arrest, which
led to his convictions, three of which remain valid. See
Heck. 512 U.S. at 486-87. One jury convicted Mills of
negligent driving and failure to obey lane directions, and
another jury convicted him of driving without his Ignition
Interlock. To overcome Heck. Mills would have to plead
that his convictions have been “reversed on direct
appeal, expunged by executive order, declared invalid by
a state tribunal authorizedto make such determination,
or called into question by a federal court’s issuance of a
writof habeas corpus.” Id. He does not, and cannot, allege
those necessary facts.
Mills clarifies that he is attacking the DUI and DWI
charges of which he was acquitted when he appealed the
District Court convictions to the Circuit Court. But Sr.
Tpr. Hassan only arrested Mills once, and that arrest,
from which the several charges against him flowed, was
a single transaction. See Wilkerson v. Hester. 114
F.Supp.2d at 456.
7 The Court notes that Mills offers no explanation for why his car
was stopped among all the others traveling on the highway that
night.

V :

...v.

App. 36
Because Sr. Tpr. Hassan had probable cause to arrest
based on Mills’ negligent driving, failure to obey lane
directions, and driving without an interlock device, Mills’
arrest was justified even if convictions stemming from the
same arrest were later overturned. See Wells. 45 F.3d at
95. In other words, the DUI and DWI charges flowed
from the same stop and arrest that were based on the
same probable cause that Mills cannot attack in this
lawsuit. Mills’ “assertions that there was no probable
cause for his arrest and that the evidence gathered
against him was obtained illegally is a collateral attack
on his convictions which may not be presented in the
context of a claim for damages.” Carter. 2015 WL
641370, at *3. To allow him to proceed on his Fourth
Amendment claim under § 1983 based on fabricated
probable cause would be to allow animpermissible
collateral challenge to his convictions by two juries. As
the Supreme Courtheld, a claim for damages that makes
such a challenge “to a conviction or sentence that has not
been so invalidated is not cognizable under § 1983.”
Heck. 512 U.S. at 487. As a result, Mills cannot challenge
the probable cause for his arrest in this case and cannot
“allege a set of facts which made it Unjustifiable” for Sr.
Tpr. Hassan to conclude that Mills had violated the law;
Brown. 278 F.3d at 368. He therefore has not adequately
pleaded his Fourth Amendment claims under § 1983.8
8 In Count I of his Complaint, Mills appears to make a claim for
bystander liabilityagainst Cpl. Lantz and Tpr. Dull. This claim fails.
The Fourth Circuit has held that a law enforcement officer “may be
liable under § 1983, on a theory of bystander liability, if he:
(1) knows that a fellow officer is violating an individual’s
constitutional rights; (2) has a reasonable opportunity to prevent the
harm; and (3) chooses not to act.” Randall v. PrinceGeorge’s Ctv..
302 F.3d 188, 204 (4th Cir. 2002). According to the Complaint,
Cpl.Lantz and Tpr. Dull’s only involvement in the facts underlying
this lawsuit was that they arrived at the side of the highway as Sr.
Tpr. Hassan was in the process of arresting Mills.

'V'

App. 37
For this reason, the Court will grant Defendants’
Motion as to Mills’ Fourth Amendment claims. The
Court now turns to Mills’ Fourteenth Amendment
claims, whichtarget what happened when the
charges were brought to court.9
ii.

Fourteenth Amendment Claims

The Fourteenth Amendment protects “against
deprivations of liberty accomplishedwithout due
process of law.” Massey v. Qjaniit. 759 F.3d
343, 354 (4th Cir. 2014) (quoting Baker v.
McCollan. 443 U.S. 137, 145 (1979)). The
Fourth Circuit has recognized a due process
“right not to be deprived of liberty as a result of
the fabrication of evidence by a government
officer acting in an investigating capacity.”
Id. (quoting Washington v. Wilmore. 407 F.3d
274, 282 (4th Cir. 2005)). But “[fabrication of
evidence alone is insufficient to state a claim for a
due process violation; a plaintiff must plead
adequate facts to establish that the loss of
liberty—i.e., his conviction and subsequent
incarceration—resulted from the fabrication.”
Id. (citing Washington. 407 F.3d at 282—83).
Here, Mills has not pleaded facts that show his
incarceration resulted from the alleged
fabrication. Mills does not allege he served any
period of incarceration for any charge other than
the Ignition Interlock violation.
They could not have known Sr. Tpr. Hassan was
violating Mills’ constitutional rightsboth because they
arrived mid-traffic stop, as Mills concedes, and because
Mills’ convictions support that Sr. Tpr. Hassan had probable
cause. As a result, the Court will grant Defendants’ Motion
as to the claims Mills makes against Cpl. Lantz and Tpr.
Dull.
9 Mills’ Fourteenth Amendment arguments and claims do not
apply to the arrest. Tavlor v. Waters. 81 F.3d 429, 435-36
(4th Cir. 1996) (noting that the Fourth Amendment provides
all of the pretrial process that is constitutionally due to a
criminal defendant).

App. 39
Federal district courts have federal question
jurisdiction over civil actions that arise under
federal law. 28 U.S.C. § 1331 (2018). The Court
has original jurisdiction over this case through
federal question jurisdiction.
Because the Court has dismissed the § 1983 claims
over which it had original jurisdiction, the Court
declines to exercise supplemental jurisdiction over
the remaining state law claims. See 28 U.S.C. §
1367(c)(3) (2018) (providing that “district courts
may decline to exercise supplemental jurisdiction
over a state claim if... the district court has
dismissed all claims over which it has original
jurisdiction”). Accordingly, the Court will dismiss
Counts V-VII, IX-XII, and XIV-XVI.
B.

Mills’ Cross-Motion

Because the Court has dismissed Mills’ Complaint,
the Court will deny Mills’ Cross-Motion as moot.
II. CONCLUSION
For the foregoing reasons, the Court will grant
Defendants’ Motion to Dismiss Complaint or, in
the Alternative, Motion for Summary Judgment
(ECF No. 11), construed as a motion to dismiss,
and deny as moot Mills’ Cross Motion for Partial
Summary Judgment (ECF No. 23). A separate
Order follows.
Entered this 30th day of September, 2019.
/s/
George L. Russell, III
United States District Judge

App. 40
IN THE UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF MARYLAND
LAWRENCE MILLS,
Civil Action No.GLR 18-562
Plaintiff,
v.
ANTHONY HASSAN, et al.,
Defendants
ORDER
For the reasons stated in the foregoing Memorandum
Opinion, it is this 30th day ofSeptember, 2019, hereby:
ORDERED that Defendants’ Motion to Dismiss
Complaint or, in the Alternative, Motion for Summary
Judgment (ECF No. 11), construed as a motion to
dismiss, is GRANTED;
IT IS FURTHER ORDERED that Mills’s Cross Motion for
Partial SummaryJudgment (ECF No". 23) is DENIED AS
MOOT; and
IT IS FURTHER ORDERED that the Clerk CLOSE this
case and MAIL a copy ofthis Order and the foregoing
Memorandum Opinion to Mills at his address of record.

Is!
George L. Russell, III
United States District Judge

5

'VS

V\‘

App. 41
FACTS COMMON TO ALL COUNTS
17. On March 13, 2015, Mills was a patron at the
Horseshoe Casino. While at the casino, hedid not
consume alcohol at any time during the evening before
getting in his car. Mills departed at 12:30 am to drive
home. He drove southbound on 195; during which Mills
did not commit anytraffic infractions.
18. Defendant Anthony Hassan, while acting under the
color of law and as an agent and employee of Defendant
State of Maryland and MSP, initiated the traffic stop
without probable cause. Mills pulled over onto the left
shoulder and Hassan approached the driver’s side door.
Hassan asked, “Where are you coming from?” Mills
replied “Horseshoe Casino.” Hassan then asked, “Have
you had anything to drink?” Mills replied, “No.” Hassan
then asked “Horseshoe? And you’re saying you had
nothing to drink?” Mills replied, “No I had some juice.”
Hassan thenasked Mills to step out of the car.
19. Hassan then directed Mills to the back of his
vehicle, at which time Hassan began explaining how he
was going to conduct field sobriety tests (“SFST”). Mills
declined to performany field sobriety tests, as he’s
permitted to do under Maryland law, and because there
was no probable cause for the stop of his vehicle, nor
reasonable articulable suspicion of intoxication. Hassan
became agitated and grabbed Mills by his arm yelling,
“You don’t want to do this? Then I’m going to take you to
jail!” Hassan continued to grab Mills by his left arm and
began draggingMills forcefully toward his cruiser.
20. While still holding Mills’ left arm, Hassan took
Mills back to the trunk of his vehicle, where he released
Mills

6

App. 42
While Mills stood facing Hassan, Hassan took out
a device to performthe horizontal nystagmus gaze
(HGN) test. Hassan asked Mills to follow the light
on the devicewith his eyes. Mills again declined to
perform any field sobriety tests. Hassan again
grabbed Mills, while repeatedly yelling, “I’m going
to take you to jail!.”
21. Hassan then released Mills and left him
alone standing in front of Hassan’s police cruiser.
Hassan then walked to Mills’ vehicle and began
searching it. While Hassan illegally searched
Mills’ vehicle, another police cruiser, with
Defendant MSP Troopers, Defendants Lantz and
Dull exited the police cruiser. Of note, nothing
illegal was found during Officers’ illegal search, nor
was any evidence located to suggest drinking.
22. Defendants Lantz and Dull exited their
vehicle and spoke with Mills, while Hassan was
still searching Mills’ vehicle. Mills told Lantz and
Dull that Hassan was searching his car without
probable cause. Dull responded, “We just got here.”
Mills then reiterated that Officers’ search was
illegal; Dull then responded again “We just got
here.” Immediately upon Dull finishing the
statement, Hassan grabbed Mills from behind and
placed him in handcuffs then took Mills by force
towards his cruiser while yelling; “I’m going to
take you to jail!” As Hassantook Mills towards his
cruiser, Defendants Dull and Lantz did not
intervene or stop Hassan.
23. Hassan physically pushed Mills onto the
trunk of his police cruiser and searched him.
Hassan then placed Mills in his police cruiser.
Hassan drove Mills to the Waterloo Barracks.
Upon arriving at the barracks, Hassan readMills
the DR-15 advice of rights, near the conclusion of
reading the advice of rights, while Hassan was
still reading, Sgt. Nuzzo entered the room. Upon
Hassan finishing reading the DR- 15 he asked if

App. 43
Mills would submit to the station breath test. Mills
then requested that an attomeybe present to
provide legal advice. Hassan then said, “It’s a
refusal.” Hassan signed the DR-15 in the refusal
section. Hassan further did not allow Mills an
opportunity to contact an attorney, which Mills
requested.
24. Hassan then charged Mills with Driving
Under the Influence of Alcohol. Hassan then went
to Nuzzo’s office and got into an argument with
Sgt. Nuzzo. Hassan told Sgt. Nuzzo that hewanted
to take Mills to jail and Sgt. Nuzzo replied to
Hassan “Just let him call someone to pick him up.”
Hassan insisted that he wanted to take Mills to
jail and Nuzzo repeated his decision to Hassan to
let Mills call someone. Hassan then walked over to
Mills and said, “I have good news, I decided to let
you call someone.” Hassan retrieved a plastic bag
with Mills’ wallet and cell phone and handed Mills
his cell phone.
25. Mills called a friend to pick him up, Hassan
left the room, and within a few minutes, Sgt.
Nuzzo entered and informed Mills he needed to
take a mug shot. -Nuzzo instructed Mills to standin
front of a backdrop; Nuzzo then photographed
Mills and told him he could sit back down. Nuzzo
left the room and returned to his office. Minutes
later, Sgt. Nuzzo returned and told Millsthat his
ride had arrived. Mills then walked over to the
lobby where Hassan was speaking with his friend.
Hassan gave the paperwork to Mills, and then he
left the barracks.
26. Hassan falsified his police report regarding
the events that transpired; namely the alleged
basis for the stop, results of the SFST (which tests
never occurred), and physical observations about
Mills at the scene and barracks.
27. All eyewitnesses at the traffic stop and

?A

App. 44
barracks observed Mills to appear sober without
any sign of impairment and Hassan intentionally
excluded Defendants Lantz, Dull and Mitchell
Nuzzo from the police report.
28. Hassan submitted his falsified report for
transmission to the Howard County State’s
Attorney’s Office with intent to deceive and
defraud, and for the purpose of instigating the
criminal prosecution of Mills for a crime he did not
commit
29. The Howard County State’s Attorney’s
Assistant State’s Attorney, Elizabeth Rosen, relied
on the fabricated observations of Hassan. Without
Officers’ fabricated observations of intoxication,
there was no evidence whatsoever to substantiate
a finding of probable cause. Rosen contacted the
other State Troopers from the Waterloo Barracks
including Sgt. MitchellNuzzo, Defendants Lantz
and Dull; but none of the other Officers were
willing to corroborate any of Hassan’s fabricated
observations of impairment attributed to Mills.
30. At all criminal proceedings for Mills’ DUI
case, Hassan was the sole state’s witness. Hassan
deliberately misrepresented material facts to
prosecutors before every criminal proceeding he
attended; including, but not limited to Hassan
stated to Rosen, inter alia, thatMills was unable to
stand unassisted at the traffic stop and at the
Barracks.
31. Mills retained counsel for his trial in Howard
County District Court. Through the courseof
Defendant Hassan’s trial testimony, Hassan went
on an uninhibited perjury binge that he undertook
with impunity. Hassan fabricated the majority of
his testimony and frequently addednew
embellishments to his tale.
32. Hassan did not acknowledge in his testimony

App. 45
the presence of eyewitnesses DefendantsLantz and
Dull or Sgt. Nuzzo the night of the incident; to the
contrary before, during, and afterthe trial, Hassan
maintained that there were no other eyewitnesses
to the incident.
33. On June 30- 2015, Mills was tried and
convicted in the District Court for Howard County
for Driving Under the Influence of Alcohol, and the
judge imposed a sentence of 2 years and 60 days to
the Department of Corrections, with 2 years
suspended. The judge set Mills’ appeal bond at
$100,000.
34. Following Mills’ release on bond, he appealed
the conviction to the Circuit Court for Howard
County. Based on information learned at trial,
counsel filed for discovery, including photographs,
video and the CAD Report. Mills was initially
advised by the State that, “We havebeen informed
that there are no photos and no other troopers
associated with this matter.” Counsel contacted
Rosen again insisting that at least one photograph
was taken at the barracks and that there were
other Troopers who were eye witnesses at the
traffic stop. Rosen was finally able to obtain the
mugshot taken by Sgt. Nuzzo at the barracks and
provide it to counsel. At the June 30, 2015, trial,
Hassan continued to portray Mills in a false light,
as being so intoxicated that he was on the verge of
being comatose, unable to stand, requiring being
lifted out of his car.The “booking” picture is
demonstrative evidence that Hassan committed
perjury.
35. Rosen obtained and provided counsel with,
the CAD report for Mills’ traffic stop. Duringa
phone interview with Hassan, counsel informed
Hassan that he had obtained the CAD report
associated with the March 13, 2015, traffic stop.
Hassan then admitted to counsel that two other
Police Officers did, in fact, come to the scene, and
provided their names, Defendants Lantz and Dull.

App. 46
36. However, Hassan told counsel that
Defendants Lantz and Dull arrived at the scene
after Mills was “already in custody”.
October 30, 2015; Suppression Hearing
37. A hearing was held in Howard County
Circuit Court to determine if Mills had been
denied his right to an attorney. However, Hassan
denied that Mills requested an attorney, which
created a factual dispute as
App. 44
to whether Mills had actually asked for a lawyer.
Hassan testified thatMills did not ask for a lawyer
but that if Mills had asked for an attorney then
Mills would 100% have been allowed to contact a
lawyer. Mills testified that he asked for an
attorney and that he was not permitted to contact
an attorney. Further, Mills testified that he did
not refuse the Breathalyzer test, that Hassan
simply signed the DR-15 in the refusal section,
saying,
“it’s a refusal” simply based on Mills’ request for
an attorney. However, Hassan later changed his
story;at Mills’ MVA Hearing Hassan testified; “He
wants to talk to a lawyer. I made him, so, I said
sure you have a right to talk to your lawyer.”
Then at Mills’ Jury Trial, Hassan even testified,
that Mills called an attorney.
February 4, 2016; MVA Hearing
38. On February 4, 2016, an administrative
hearing was held at the MVA branch in Bel Air,
Maryland with Administrative Law Judge Brian
Zlotnick. The purpose of the hearing was to
determine whether or not Mills refused to submit
to an intoximeter test on March 13th, 2015. At the
MVA hearing, during direct examination and
cross-examination from Defense Counsel Jeffrey

App. 47
Hann, Esq., Hassan proceeded to falsely testify in
detail regarding the circumstances surrounding
Mills’ arrest. During the course of Hassan’s
testimony, he repeatedly contradicted statements
from the prior District Court Trial and
Suppression Hearing. Among these contradictions,
Hassan testified that Mills suddenly gained the
ability to walk of his own accord only when
eyewitness Garcia arrived.
39. Hassan falsely testified that Troopers Lantz
and Dull showed up after Mills was in his patrol
car. The reality was that Hassan placed Mills in
front of his police cruiser and left Mills standing
on his own while he searched Mills’ car at the
time Defendants Lantz and Dull arrivedat the
scene. Mills walked over and had a conversation
with them before Mills was arrested.
February 18, 19i’ 2016; Jury Trial
40. A jury trial was held in Howard County
Circuit Court, before the ■ Honorable Richard
Bernhardt, regarding the DUI case against Mills.
Hassan proceeded to commit perjury again before
the jury. Hassan testified that upon coming into
contact with Mills he detected a strong odor of alcohol both from Mills and the interior of the
vehicle.
41. He then claimed to have observed slurred
speech and had to lift Mills out of the car because
Mills was unable to stand. Hassan stated that he
immediately placed Mills under arrest and in his
patrol car, and that the other Troopers arrived
only after Mills was in his patrol car. Hassan even
testified that he believed Mills had alcohol
poisoning.
i

42. Eyewitness Fernando Garcia testified that
he picked Mills up from the Barracks the night of
Mills’ arrest. Garcia is employed by the State
■f

